DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


     FEMA’s Sheltering and Transitional
      Housing Activities After Hurricane
                  Katrina




OIG-08-93                       September 2008
                                                                           Office of Inspector General

                                                                           U.S. Department of Homeland Security
                                                                           Washington, DC 20528




                                          September 12, 2008


                                               Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audits, inspections, and special reports prepared as part of our
oversight responsibilities to promote economy, effectiveness, and efficiency within the department.

This report addresses the Federal Emergency Management Agency’s (FEMA) performance in
fulfilling its mission to provide housing assistance to victims and evacuees of Hurricanes Katrina,
Rita, and Wilma. We examined various regulations, policies, procedures, plans, and guidelines, and
assessed whether resources were sufficient to address FEMA’s management responsibilities with
respect to providing housing assistance.

The recommendations herein have been developed to the best knowledge available to our office and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in a more effective, efficient, and economical housing program. We express our
appreciation to all who contributed to the preparation of this report.




                                                   Richard L. Skinner 

                                                   Inspector General 





               FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina
Table of Contents/Abbreviations

  Executive Summary ....................................................................................................................... 1

  Background .................................................................................................................................... 2

  Results of Review ........................................................................................................................... 5

       Planning for Sheltering and Transitional Housing .................................................................... 5
       Communicating and Coordinating with State and Local Governments
        and Other Organizations .......................................................................................................... 9
       Planning, Managing, and Monitoring Acquisitions................................................................. 12
       FEMA Oversight of Leasing Sites........................................................................................... 20
       Manufacturers’ Warranties ...................................................................................................... 21
       Alternatives To Status Quo...................................................................................................... 23
       Considerations for Congress .................................................................................................... 28

  Management Comments and OIG Analysis .............................................................................. 28

  Appendices

       Appendix A:           Purpose, Scope, and Methodology...................................................................35
       Appendix B:           Event Decision Timeline..................................................................................36
       Appendix C:           Management Responses to Draft Report .........................................................40
       Appendix D:           Major Contributors to this Report....................................................................49
       Appendix E:           Report Distribution ..........................................................................................50

  Abbreviations

       COTR                  Contracting Officer’s Technical Representative
       DHS                   U.S. Department of Homeland Security
       ESF                   Emergency Support Function
       FAR                   Federal Acquisition Regulation
       FEMA                  Federal Emergency Management Agency
       GAO                   Government Accountability Office
       HAC                   Housing Area Command
       HUD                   U.S. Department of Housing and Urban Development
       IA                    Individual Assistance
       IHP                   Individuals and Households Program
       JFO                   Joint Field Office
       NDHS                  National Disaster Housing Strategy
       NRF                   National Response Framework
       OIG                   Office of Inspector General
       Stafford Act          Robert T. Stafford Disaster Relief and Emergency Assistance Act



                  FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina
OIG
Department of Homeland Security
Office of Inspector General

  Executive Summary
                  The Federal Emergency Management Agency (FEMA) received widespread
                  criticism for its response and recovery efforts to Hurricane Katrina, including
                  criticism that focused on FEMA’s ability to transition housing assistance from
                  emergency shelters to more permanent forms of temporary housing. This
                  review focused on FEMA’s activities in providing housing assistance to
                  victims in Louisiana, Mississippi, Texas, Florida, and Alabama, and on
                  FEMA’s overall management of the housing program. We also considered
                  potential alternatives to fulfilling FEMA’s housing mission. The conclusions
                  we reached during this review are based on the objectives, scope, and
                  methodology detailed in Appendix A of this report.

                  Better planning for catastrophic disasters may have allowed FEMA to
                  effectively respond to the housing needs of hurricanes Katrina, Rita, and
                  Wilma victims. Before Hurricane Katrina, FEMA did not have plans that
                  clearly defined roles, responsibilities, and processes to address housing needs.
                  After Hurricane Katrina, FEMA did not (1) coordinate housing needs among
                  state and local governments; (2) provide adequate contract management and
                  monitoring; or (3) provide oversight of contractors’ performance.

                  This review identified a number of alternatives that may be viable solutions to
                  remedy the housing problems resulting from catastrophic events such as
                  Hurricane Katrina. These solutions include (1) having the states or the U.S.
                  Department of Housing and Urban Development (HUD) assume more
                  responsibility, and (2) having FEMA use more permanent types of housing or
                  make lump sum payments to victims in lieu of providing emergency housing
                  such as travel trailers and mobile homes.

                  We are making 13 recommendations to the Administrator, Federal Emergency
                  Management Agency. We also are offering suggestions that Congress may
                  wish to consider. Collectively, FEMA should develop plans that define roles,
                  responsibilities, and processes to address housing needs resulting from
                  catastrophic disaster events. Also, FEMA should develop an acquisition
                  strategy that will provide the housing assets, supplies, and services needed to
                  meet the short- and long-term needs of disaster victims.




             FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                Page 1
    Background
                           Devastation from Three Hurricanes
                           The 2005 Atlantic hurricane season was the most active season on record
                           producing 15 hurricanes, 4 of which hit the United States. Most notable of
                           these storms was Hurricane Katrina, one of the strongest storms to strike the
                           coast of the United States during the past 100 years. Figure 1 shows the path
                           of the three hurricanes.

                           Figure 1. Path of Hurricanes Rita, Katrina, and Wilma




                           Source: NOAA

                           On August 29, 2005, Hurricane Katrina made landfall along the Gulf Coast as
                           a strong Category 3 hurricane 1 with sustained winds of 125 miles per hour and
                           storm surges of up to 27 feet. It caused catastrophic devastation in Alabama,
                           Mississippi, and Louisiana, with some areas losing all or large portions of
                           critical infrastructure. Even after the storm passed, the destruction continued
                           when the levees and floodwalls surrounding the City of New Orleans were
                           breached in several places resulting in approximately 80% of the city being
                           submerged, in some places by as much as 20 feet of water. In total, the storm
                           destroyed an estimated 300,000 homes, displaced approximately 700,000
                           individuals, and resulted in the deaths of more than 1,300 individuals. Within
                           2 months of Hurricane Katrina making landfall, hurricanes Rita and Wilma
1
 The Saffir-Simpson Hurricane Scale is a 1-5 rating based on the hurricane's current intensity and is used to give an
estimate of the potential property damage and flooding expected along the coast from a hurricane landfall.


                     FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                          Page 2
                          struck land areas in Texas, Louisiana, and Florida, placing additional
                          pressures on FEMA’s already thinly stretched capabilities.

                          FEMA initiated Section 403 (Essential Assistance 42 USC § 5170b) of the
                          Robert T. Stafford Disaster Relief and Emergency Assistance Act (Stafford
                          Act), Public Law 93-288, as amended, providing Public Assistance Program
                          funding to states for meeting immediate but temporary sheltering (churches,
                          schools, non-essential government buildings) needs for individuals who
                          evacuated from their homes. Public Assistance funding expanded further to
                          include hotels, motels, and apartments (transitional housing) since the storms’
                          devastation prevented individuals from returning to their homes after the
                          storm had passed.

                          FEMA also initiated its Direct Housing Assistance Program under the
                          authority of Section 408 of the Stafford Act. Under the program and after all
                          other temporary housing sources in the area have been exhausted, FEMA can
                          procure and install manufactured housing units (travel trailers, mobile homes,
                          and other types of prefabricated housing) on private sites, commercial parks,
                          or other temporary sites developed by FEMA. To qualify for placement,
                          applicants must have lived in the affected area at the time the disaster
                          occurred, and been displaced from their primary dwelling as a result of the
                          disaster.

                          As of August 2006, FEMA had procured 143,699 travel trailers and mobile
                          homes, and 1,755 modular homes. Due to purchases from prior seasons,
                          FEMA had approximately 203,000 travel trailers and mobile homes in its
                          inventory. Responding to housing needs in affected states, FEMA issued a
                          mission assignment 2 to the U.S. Army Corps of Engineers requesting it to:

                              •    Provide coordination, planning and technical support;

                              •    Conduct site inspections and design or develop group sites to include
                                   the installation of utilities;

                              •    Contract for the hauling, installing, and recovering of mobile homes,
                                   travel trailers, and other readily fabricated dwellings;

                              •    Perform associated environmental assessments;

                              •    Manage staging area operations; and

                              •    Perform site restoration.
2
  A mission assignment is a work order issued by FEMA to another federal agency directing completion of a specific
task in support of the state or the overall federal response and recovery operation.


                     FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                        Page 3
     Appendix B to this report describes key events and decisions regarding
     hurricanes Katrina, Rita, and Wilma (Gulf Coast hurricanes) from
     August 25, 2005 through December 12, 2006.




FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                   Page 4
Results of Review
               Better planning may have allowed FEMA to respond more effectively to the
               housing needs of the victims of the Gulf Coast hurricanes that struck in
               August and September 2005. Prior to the 2005 hurricane season, FEMA did
               not have plans that clearly defined roles, responsibilities, and processes to
               address catastrophic disaster housing needs. After Hurricane Katrina, FEMA
               did not (1) coordinate housing needs among state and local governments; or
               (2) provide adequate contract management, monitoring, and oversight of
               contractors’ performance.

     Planning for Sheltering and Transitional Housing

               When Hurricane Katrina struck, FEMA did not have a plan and was not fully
               prepared to provide sheltering or transitional housing to victims of a
               catastrophic disaster. FEMA began assisting states in catastrophic disaster
               planning in 1998, but could not follow through due to a lack of funding.
               Further, the National Response Plan had been developed just prior to
               Hurricane Katrina, but it had not been implemented or tested and did not
               address catastrophic disaster housing plans at the state and local level.

               FEMA’s Lack of a Catastrophic Disaster Housing Plan

               After Hurricane Georges in 1998, Louisiana realized that more planning was
               needed to prepare for the consequences of a major hurricane striking the state.
               In 1999, the state’s Office of Emergency Preparedness requested FEMA’s
               assistance in developing such a plan. After its second request in August 2001,
               the state entered into a contract to assist it in the planning process. However,
               planning was interrupted by disasters, and attempts to revive the process were
               unsuccessful due to funding shortfalls.

               In July 2004, an exercise scenario named “Hurricane Pam” was conducted. It
               involved over 350 participants from more than 15 federal agencies;
               30 Louisiana state agencies and 13 parishes; FEMA headquarters; FEMA
               Regions I, II, IV, and VI; the Louisiana Office of Homeland Security and
               Emergency Preparedness; Mississippi and Arkansas; and numerous voluntary
               agencies. Follow-up sessions were delayed after the initial exercise due to
               funding shortfalls, and a catastrophic disaster housing plan was never
               completed. The Government Accountability Office (GAO) reported that
               requests from FEMA for $100 million for catastrophic planning and an
               additional $20 million for catastrophic disaster housing planning in fiscal




          FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                             Page 5
                         years 2004 and 2005, respectively, were denied by the Department of
                         Homeland Security (DHS). 3

                         The National Response Plan was issued in December 2004 to align federal
                         coordination structures, capabilities, and resources into a unified, all
                         discipline, and all-hazards approach to domestic incident management. The
                         purpose of the plan was to tie together incident management to include the
                         prevention of, preparedness for, response to, and recovery from terrorism,
                         major natural disasters, and other major emergencies. While the plan
                         provided basic guidelines, a clear understanding of roles and responsibilities
                         was not apparent after Hurricane Katrina struck because the plan had not been
                         tested and standard operating procedures had not been developed.

                         Further, the plan did not contain a housing annex addressing sheltering and
                         transitional housing needs that occur after a catastrophic event. The lack of a
                         fully developed and exercised plan led to many management shortfalls and
                         inefficiencies in responding to the housing needs of the victims of the Gulf
                         Coast hurricanes.

                         The Effect of Not Having a Plan

                         In the absence of catastrophic disaster housing plans and in anticipation of
                         Hurricane Katrina making landfall, FEMA established a Housing Area
                         Command (HAC) in Baton Rouge, Louisiana on August 28, 2005. The HAC
                         concept was developed in the spring 2005 to respond to large-scale disasters
                         where housing needs became overwhelming and involved multiple states.

                         The HAC was ineffective in fulfilling its mission primarily because of the
                         need for more planning, communication, and coordination between the HAC,
                         FEMA headquarters, and the Joint Field Offices (JFOs). While this concept
                         was new and untested, FEMA envisioned that the HAC would plan housing
                         strategies and find ways to meet the immediate housing needs of disaster
                         victims in Louisiana, Mississippi, and Alabama. FEMA recognized that a
                         catastrophic disaster would necessitate unconventional approaches to meeting
                         housing needs. The concept called for the HAC to use contractors to
                         coordinate and oversee the implementation of housing solutions to satisfy
                         these needs.

                         The HAC did not have clearly defined roles, responsibilities, and expectations
                         of deliverables or established performance measures for contractors. Many
                         problems ensued because some FEMA officials viewed the HAC as an


3
 Hurricanes Katrina and Rita: Unprecedented Challenges Exposed the Individuals and Households Program to Fraud
and Abuse; Actions Needed to Reduce Such Problems in the Future, GAO-06-1013, dated September 2006.


                    FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                       Page 6
                         operational element working parallel to JFO operations, while others viewed it
                         as working in disregard to JFO operations.

                         The organization structure depicted below in Figure 2 envisioned that the
                         HAC, working with the Joint Housing Solutions Center, 4 would identify and
                         coordinate housing resources and that housing operations would remain the
                         responsibility of the JFOs.

                         Figure 2. Organization Structure of Housing Area Command

                                                   Housing Area Command (Structure)


                                           Louisiana                                           Mississippi
                                           Joint Field                Housing                  Joint Field
                                             Office                    Area                      Office
                                                                     Command

                              Alabama
                                                                                                               Florida
                             Joint Field
                                                                                                             Long Term
                               Office
                                                                                                              Recovery
                                                                                                               Office

                                                           HAC                       Joint
                                                          Support                  Housing
                                                           Team                    Solution
                                                                                    Center




                              Logistics            Housing            Finance             Planning           Long-Term
                                And               Operations        Coordination           Section           Community
                                SCM                Section            Section                                 Recovery
                               Section                                                                         Section


                         Source: FEMA: Closer to Home-Housing Strategy Solutions in Response to Hurricane
                                 Katrina, September 12, 2005

                         In concept and according to a FEMA policy document, the HAC was to
                         identify resources and develop a plan for where and what type of housing was
                         needed. The JFOs would implement the plan by developing emergency,
                         group, and commercial sites; hauling and installing mobile homes and travel
                         trailers; and constructing modular homes. However, the HAC retained
                         operational control of housing decisions and operations. Because there was
4
 The Joint Housing Solutions Center, co-chaired by FEMA and HUD, worked with other federal agencies, volunteer
groups, and private companies, and developed housing options and identified housing resources.


                    FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                         Page 7
                          no clear understanding of the roles and responsibilities between the HAC and
                          the JFOs, the chain of command remained unclear and both entities made
                          decisions on housing strategies resulting in duplication of effort. For
                          example, as we noted in a previous report, 5 the HAC identified a need for a
                          1,400-unit group site in Alabama even though the JFO had not requested this
                          site because other housing alternatives had been identified.

                          The HAC and its contractors directed most efforts in identifying large, group
                          travel trailer sites requiring considerable preparation before trailers could be
                          placed on those sites. Some FEMA officials believed that the HAC should
                          have spent more time identifying smaller sites or single sites where utility
                          hook-ups already existed and that experienced FEMA personnel should have
                          been working with the HAC’s “strike teams” 6 that included contract personnel
                          who had little or no FEMA experience. At the same time, the JFOs were
                          performing housing functions and operations because they believed housing
                          needs were unique to each state and the HAC was not in a position to make
                          effective decisions without understanding these specific and unique needs. As
                          indicated, there was little coordination and communication between FEMA
                          headquarters, the JFOs, and the HAC. While HAC officials said that disaster
                          circumstances required them to make decisions independently, the lack of a
                          clear chain of command and assigned roles and responsibilities contributed to
                          the ineffectiveness of the housing strategy and its actual implementation.

                          As a result of the lack of coordination and communication among those within
                          FEMA making housing decisions, FEMA deactivated the HAC in
                          October 2005. The Housing Management Group was established shortly
                          thereafter to serve as an interagency, intergovernmental organization to
                          facilitate all related disaster-housing concerns. The Housing Management
                          Group was organizationally placed within the Individual Assistance Branch of
                          the Operations Section at the JFO, and FEMA officials agreed they were
                          necessary and effective.

                          The lack of a unified federal, state, and local catastrophic disaster housing
                          plan and associated exercises, along with an ineffective HAC concept,
                          contributed to many of the planning shortfalls in meeting disaster victims’
                          housing needs. FEMA is currently developing a National Disaster Housing
                          Strategy (NDHS), as mandated in the Post Katrina Emergency Management
                          Reform Act of 2006, to address many of the disaster housing shortfalls
                          identified in the aftermath of Hurricane Katrina.
5
  A Performance Review of FEMA’s Disaster Management Activities in Response to Hurricane Katrina, OIG-06-32,
dated March 2006.
6
  A strike team is an inter-agency, multi-disciplinary team of engineers, planners, data analysts and building code /
regulatory specialists who work closely with local government to deliver housing solutions. The teams also include
representatives from federal agencies such as HUD, SBA, USDA, and the U.S. Army Corps of Engineers as well as state
and local representatives as appropriate.


                     FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                        Page 8
   Recommendations
          We recommend that the Administrator, Federal Emergency Management
          Agency:

          Recommendation #1: Expedite the completion of the National Disaster
          Housing Strategy and develop, implement, test, and exercise a housing plan
          for meeting the needs of individuals displaced by catastrophic disasters.

          Recommendation #2: Develop a command and control structure over
          housing decisions that clearly defines all roles and responsibilities and
          identifies the chain of command needed to ensure timely decision-making.

Communicating and Coordinating with State and Local Governments
and Other Organizations

          Better communication and coordination by FEMA with state and local
          governments, other agencies, and volunteer organizations regarding the
          eligibility criteria for housing assistance may have (1) eliminated the need to
          provide essential, but temporary housing assistance for extended periods of
          time, and (2) resulted in identifying ineligible applicants who were housed for
          extended periods of time. In addition, coordination with these governments,
          other federal agencies, and volunteer organizations could result in improved
          methods for identification of disaster victims and avoid duplication of
          benefits.

          Communication with State and Local Governments

          Meeting the immediate and longer-term housing needs of individuals
          impacted by the Gulf Coast hurricanes required an unprecedented “national”
          response and extensive communication with state and local governments. In
          the past, the American Red Cross and other volunteer organizations met the
          immediate sheltering needs of those requiring assistance as a result of a major
          disaster declaration. FEMA assisted those individuals requiring additional
          longer-term housing assistance. However, hurricanes Katrina and Rita
          destroyed or made uninhabitable thousands of properties, made it impossible
          for the victims to return to their homes, and created additional sheltering
          requirements beyond what has ever been experienced in the past. Better
          communication between FEMA and state and local governments regarding
          how to best meet and pay for short- and longer-term housing would have
          made it easier for disaster victims to transition from short-term essential
          housing assistance to longer-term assistance.
          Public Assistance Program funding for meeting immediate but temporary
          sheltering needs (hotels, motels, and apartments) is provided to the states


     FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                        Page 9
     under the authority of Section 403 of the Stafford Act (Essential Assistance).
     Longer-term assistance is authorized under Section 408 of the Stafford Act
     (Federal Assistance to Individuals and Households 42 USC § 5174) with
     payments made by FEMA going directly to individuals or landlords, generally
     for a period of up to 18 months.

     To provide a more permanent type of housing to disaster victims in hotels and
     motels, several states rented apartments under their Section 403 authority.
     However, when it became apparent that longer-term housing solutions were
     needed and the states were using Section 403 assistance to meet these
     longer-term needs, FEMA issued disaster specific guidance for hurricanes
     Katrina and Rita on November 14, 2005. This guidance established FEMA,
     state, and local procedures for transitioning victims from Section 403 to
     Section 408 assistance. Working with states and local governments, FEMA
     attempted to contact evacuees, outline their responsibilities and options, and
     register those applicants who had not yet registered for Section 408 assistance.
     While FEMA hoped to have this process completed by December 1, 2005, it
     had not received enough information from the states to identify all individuals
     receiving state assistance under Section 403, and in January 2006, FEMA
     again requested the states to provide data in a specified format.

     Data received from the states were not always transmitted in the required
     format or were missing critical data required to accomplish the applicant
     transition to Section 408 assistance. FEMA’s review of data submitted by the
     states as of February 2006 showed the following:

         •    63% of apartment leases had no end date,
         •    28% did not include the phone number of the landlord,
         •    16% did not include the landlord’s name,
         •    49% did not have a street address for the rental property, and
         •    4% had no information as to how to contact the landlord.

     Additional disaster specific guidance was issued on March 26, 2006. The
     guidance contained significantly more detailed requirements for the transition
     of applicants still being housed and funded under Section 403 assistance.

     Some transition delays, such as legal actions or applicants’ refusals to vacate,
     were out of FEMA’s control. However, the need for clear guidance, and
     timely coordination and communication between FEMA and state and local
     officials resulted in the extended use of Section 403 funding and in possible
     housing of ineligible applicants for extended periods of time.




FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                  Page 10
       Coordination with Other Agencies

       Beyond coordinating and communicating with state and local governments,
       working with other organizations and agencies could help expedite the process
       of validating disaster victims as legitimate evacuees and potentially avoid
       duplication of benefits. For example, other organizations and agencies
       include the American Red Cross, HUD, and staff in FEMA’s Public
       Assistance and Individual Assistance Programs.

       Since there was no single system that tracked individuals receiving housing
       assistance from FEMA and other organizations and agencies, state officials
       said that authorization codes that validated the evacuees’ eligibility could have
       been assigned prior to providing the evacuees temporary housing. According
       to FEMA, an authorization code would be provided at the time of registration
       to eligible applicants to be used to obtain an Individuals and Households
       Program (IHP) subsidized hotel/motel room for up to 7 calendar days. This
       period of assistance can be extended if necessary. Assigning these codes
       would allow FEMA to identify evacuees eligible for Section 408 assistance,
       and provide a more reliable basis in which hotels and motels can validate that
       only eligible applicants receive IHP-subsidized rooms to prevent duplication
       of benefits.

       At the time of our review, FEMA was formulating a recovery strategy that,
       among other things, calls for a unique authorization code to be assigned to
       applicants to validate their eligibility for transitional sheltering. FEMA plans
       to assign authorization codes only for individuals/households that have
       registered for FEMA assistance and have been verified through FEMA’s
       identity verification process.

Recommendations
       We recommend that the Administrator, Federal Emergency Management
       Agency:

       Recommendation #3: Develop policies, procedures, and guidelines that
       address roles and responsibilities of FEMA and state and local governments
       articulating how housing needs of victims will be met in catastrophic events.

       Recommendation #4: Finalize and implement its strategy for developing a
       system that authorizes eligible applicants to obtain an IHP-subsidized
       hotel/motel room for temporary sheltering.




  FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                    Page 11
             Planning, Managing, and Monitoring Acquisitions

                          FEMA needs to improve how it plans, manages, and monitors disaster
                          housing acquisitions. Specifically, FEMA needs to (1) develop a formal
                          acquisition planning process, including standby contracts, to meet transitional
                          housing needs after catastrophic disasters; (2) base contract awards, to the
                          extent possible, on full and open competition to assure reasonable prices; and
                          (3) provide the resources necessary to monitor contractor performance.

                          Pre-Disaster Acquisition Planning

                          FEMA did not have a formal acquisition planning strategy for the majority of
                          transitional housing contracts awarded after Hurricane Katrina. While the
                          Federal Acquisition Regulation (FAR) requires agencies to perform
                          acquisition planning and conduct market research to the maximum extent
                          practicable, the Homeland Security Acquisition Manual and the FAR do not
                          require formal plans for emergency acquisitions. 7 However, FEMA’s core
                          mission is to respond to emergencies, and on a recurring basis, procure
                          emergency supplies and equipment such as transitional housing units.
                          Therefore, acquisition planning represents a sound business practice FEMA
                          should follow for these types of procurements. The unpredictable nature of
                          emergency operations could limit FEMA’s ability to select specific sources in
                          advance of a disaster. However, advance planning could:

                              •    Lay out source selection procedures for each type of procurement;

                              •    Identify prospective sources of supplies or services, including sources
                                   identifiable through government-wide and industry association
                                   databases using market survey approaches;

                              •    Establish communication systems and processes and publicize them so
                                   that prospective sources know how to contact FEMA procurement
                                   personnel;

                              •    Delineate how competition will be sought, promoted, and sustained
                                   during and after emergency operations;

                              •    Describe how Stafford Act requirements for preferences of firms
                                   affected by the disaster will be met;



7
  Emergency acquisitions occur when the need for the supplies or services is of such an unusual and compelling urgency
that the government would be seriously injured if the supplies or services were not immediately acquired.


                     FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                       Page 12
         •    Establish within DHS an assessment process to monitor planning
              efforts for disaster-related procurement needs; and

         •    Provide adequate funding devoted to acquisition oversight in order to
              help prevent fraud, waste, and abuse in disaster contracts.

     At the time of our review, FEMA had no apparent source selection process in
     place or standard templates with contract specifications for transitional
     housing acquisitions, even though these products were procured on a regular
     basis. For example, while some large contracts were awarded to
     well-established leaders in the industry, other large contracts were awarded to
     firms with little or no housing experience.

     FEMA purchased over 27,000 travel trailers “off the lot” from 300 local firms
     in its effort to provide temporary housing to victims quickly. While in this
     case the immediate need for housing overshadowed the need for detailed
     planning, FEMA either did not identify minimum government specifications
     or requirements for “off the lot” purchases, or did not clearly state the
     government's minimum needs. For example, a number of procurements did
     not identify minimum government requirements other than the vendor
     providing travel trailer vehicle identification numbers. In other purchases, the
     only specifications listed were, “Must have furniture, AC/Heat and
     Microwaves (basic amenities only)” and “No toy haulers, 5th wheels or pop
     ups.” With no government specifications or specifications that were too
     broad, vendors could provide trailers that may or may not meet the minimum
     needs of evacuees occupying those travel trailers, e.g., units with or without
     bathroom, beds, dinettes, refrigeration, electrical outlets, water heaters,
     ranges, etc.

     In addition to travel trailers, FEMA purchased 24,967 mobile homes at a cost
     of $852 million and 1,755 modular homes at a cost of $52.4 million in
     response to the transitional housing needs of evacuees. FEMA had no plans
     for how the homes would be used before they were purchased. Due to the
     large number of homes purchased and the need to prepare sites before
     distributing the homes, FEMA issued a mission assignment to the United
     States Forest Service to assist with setting up four emergency housing storage
     sites in Hope, Arkansas; Red River Army Depot in Texarkana, Texas; Purvis,
     Mississippi; and Baton Rouge, Louisiana. As of July 2006, there were
     approximately 12,870 mobiles homes and 600 modular homes staged at
     emergency housing sites waiting to be used, refurbished, or sold.

     Travel trailers, mobile homes, and modular homes were purchased that were
     not needed or used. As part of its future planning process, FEMA needs to
     consider acquisition strategies that (1) meet emergent transitional housing


FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                  Page 13
                        needs, (2) result in obtaining housing units that can be stored for extended
                        periods if not in use, and (3) consider where to store unused housing units.

                        We previously reported that modular homes deteriorated because they were
                        not designed to be stored for long periods. We recommended that FEMA
                        develop written policies and procedures that address modular home
                        acquisition planning to ensure that units acquired are designed to be stored
                        and that adequate storage locations have been identified in advance of a
                        disaster. 8 Similar planning for all types of transitional housing is needed to
                        ensure that emergency and transitional needs are met while at the same time
                        considering the costs to develop or acquire housing sites, and providing sites
                        to store returned or unused units.

                        Table 1 shows per unit costs developed by FEMA to deploy mobile homes
                        and travel trailers to private, commercial, and group sites. The costs reflect an
                        18-month period of time and include the cost of the unit, hauling and
                        installing fees, pad leasing fees for units in commercial sites, and the cost for
                        developing sites when the unit is placed in a group site. This information is a
                        good step in making strategic decisions in future disasters.

                        Table 1. Mobile Home and Travel Trailer Per Unit Costs Breakdown
                                            Mo bile Home and Travel Tra iler Per Unit Costs Break down

                                                                                                     Private Sites
                                                     $113,770                                        Commercial Sites
                                $105,770
                                                                                                     Group S ites

                                                      $69,970                                      $83,948
                                 $61,970                                   $74,948
                                                $51,455
                           $43,455
                                                                                                   $38,348
                                                                            $29,348         $26,558
                                                                       $17,558




                               Mobile Homes       Mobile Hom es (Off      Travel Trailers    Travel Trailers (Off
                              (Manufactured)           the Lot)          (Manufactured)           the Lot)


                        Source: FEMA




8
 Management Advisory Report on the Condition, Losses, and Possible Uses of FEMA Modular Housing, OIG-07-03,
dated October 18, 2006.


                   FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                     Page 14
                           Competition in Contracts and Price Reasonableness

                           In the aftermath of Hurricane Katrina, FEMA did not compete many of its
                           contracts under full and open competition and did not adequately document its
                           rationale for sole source selections. This created the appearance of bias or
                           favoritism. As a result, FEMA had limited assurance that the prices it paid for
                           goods and services were reasonable.

                           After a major disaster, government agencies can award contracts under
                           expedited contracting methods as authorized by FAR. In response to
                           Hurricane Katrina, DHS/FEMA awarded approximately 3,400 contracts worth
                           approximately $5.3 billion to provide a timely response to victims’ needs.
                           More than 1,000 of the contracts were valued in excess of $500,000, but less
                           than half were awarded under full and open competition. We are currently
                           reviewing the terms and conditions of several contracts over $500,000 and
                           other Offices of Inspector General (OIGs) are doing the same. In addition, we
                           are conducting reviews of invoices, focusing on high-risk contracts.

                           Shortly after Hurricane Katrina struck, FEMA awarded four major Individual
                           Assistance contracts on a sole source basis for technical assistance in the gulf
                           region. These contracts primarily involved the installation, operation,
                           maintenance, and deactivation of housing facilities. We reviewed the source
                           selection process for each of the major Individual Assistance Technical
                           Assistance Contractors, but could not find complete records to determine how
                           these firms were selected. While the four contractors were among the top
                           50 construction contractors in the country 9 and technically qualified to
                           perform the work, FEMA did not provide sufficient documentation regarding
                           the process used to select these firms over other highly rated firms. Of the
                           companies selected by FEMA, one ranked first, a second ranked fourth,
                           another ranked fifteenth, and the fourth ranked fiftieth.

                           FEMA re-competed the contracts and made awards to six large contractors
                           shortly after September 30, 2006. FEMA also awarded 36 contracts, mostly
                           to local and small gulf region businesses, to perform maintenance and
                           deactivation work previously performed by the large contractors. Because the
                           contract period for the four large contracts ended on September 30, 2006,
                           FEMA also issued a Request for Proposal to the 36 maintenance and
                           deactivation contractors to haul and install trailers and mobile homes in
                           Louisiana and Mississippi. Nineteen of these contractors received awards for
                           haul and install; 14 for Louisiana were awarded by September 26, 2006, and 5
                           for Mississippi were awarded by October 17, 2006.



9
    According to Engineering News Record magazine.


                      FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                        Page 15
     We conducted a review of the 36 Maintenance and Deactivation Contractors
     and issued a report, FEMA’s Award of 36 Trailer Maintenance and
     Deactivation Contracts, OIG-07-36 in March 2007. We reported that overall,
     FEMA treated bidders fairly during the bidding process. However,
     contracting officials did not properly assess the wide range of prices proposed
     by bidders. This exposed FEMA to the risk of paying too much for contract
     line items and not paying enough to ensure proper performance.

     FEMA said it made use of “limited competition” procedures in awarding
     contracts in response to Hurricane Katrina. FEMA defined “limited
     competition” as calculating a “reasonable” unit price range and making
     awards to those contractors who were known to FEMA and who provided
     quotes within that range. The term “limited competition” allows agencies to
     obtain competition “to the maximum extent practicable” for urgent and
     compelling reasons, although it is not a process recognized by the FAR. It
     gave FEMA a means of ensuring contracts were awarded with unit prices
     determined to be reasonable. However, the lack of objective evaluation
     criteria for determining which firms received smaller contracts and which
     firms received significantly larger contracts provided a basis for other
     non-selected contractors to assert bias or favoritism in the award process.

     To foster competition to the maximum extent possible, acquisition plans
     should consider the FAR requirement to specify company size standards in
     solicitations so that offerors can appropriately represent themselves as small
     or large businesses. To the extent possible, FEMA acquisition plans should
     anticipate all factors and significant subfactors that will affect contract award
     and their relative importance so that they can be specified clearly in the
     solicitation. In addition, the plans should use public information strategies to
     identify FEMA procurement points of contact and proposal evaluation criteria
     for major products. By having strategies that draw on state economic
     development offices, chambers of commerce, and industry associations,
     well-connected vendors would not have a significant advantage in contacting
     FEMA procurement personnel following a disaster and would not be
     perceived as receiving favored treatment in contract awards. Using this
     approach could have resulted in a more equitable distribution of contract
     awards and address the issues of fair and reasonable pricing.

     FEMA contract files contained little or no documentation regarding price
     reasonableness, although the FAR requires contracting officers to document
     the determination of fair and reasonable pricing. Many of the files contained
     no contract files checklist or record of supervisory review and approval. With
     the high volume of procurement activity within such a short period of time,
     documentation providing an explanation of the source selection process and
     the determinations of cost reasonableness was not prepared for many
     contracts. Use of streamlined documentation procedures to meet the FAR

FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                  Page 16
     requirements would not have appreciably impeded FEMA’s contracting
     efforts to provide expedited assistance to the disaster victims.

     Contract Oversight and Monitoring

     Inadequate numbers of contracting staff and a shortage of experienced
     Contracting Officer’s Technical Representatives (COTRs) hampered FEMA’s
     ability to monitor Hurricane Katrina response contracts. Effective contract
     oversight and monitoring is necessary to ensure that the government gets what
     the contracts call for and that costs are controlled.

     As of March 13, 2006, FEMA awarded $5.3 billion in procurements to
     support the Gulf Coast recovery efforts. FEMA had approximately
     55 contracting personnel that were assisted by temporary deployments of
     General Services Administration contracting personnel. Based on this data
     and as depicted in Figure 3, we estimated that each of the contracting staff
     was responsible for an average of $163 million on an annualized basis, or
     more than 7 times the industry average. The workload overwhelmed the
     capacity of the contracting staff and made compliance with the requirements
     of various federal procurement regulations challenging to the staff.

     Figure 3. Comparison of Contracting Responsibilities

          Contracting Responsibilities per Contracting Officer
                       (Industry versus FEMA)
                                            $163,000,000



                                                                            FEMA
                                                                            Industry Average

                   $23,300,000




     Source: Center for Strategic Supply Research

     The shortage of trained and experienced staff to oversee and monitor contracts
     was evident:

         •    FEMA officials said that in some instances, FEMA accepted delivery
              of trailers and mobile homes without inspecting them or holding


FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                  Page 17
                                   contractors accountable. FEMA did not know the number of housing
                                   units that would be delivered on a given day and vehicle identification
                                   numbers were not reconciled with Bills of Lading. 10 Consequently,
                                   there was little assurance that FEMA received what it had procured.

                              •    GAO reported that, in November 2005, FEMA’s contracts for
                                   installing temporary housing in 4 states had only 17 of the 27 required
                                   monitors. 11 Our discussions with FEMA staff in Louisiana confirmed
                                   GAO’s conclusion that there were too few monitors/COTRs and
                                   identified other causes for insufficient contract monitoring including
                                   the following:

                                       1. COTRs rotation periods did not overlap, so the arriving COTRs
                                          were not sufficiently briefed by the departing COTRs, and

                                       2. Many of the COTRs were borrowed from other agencies and
                                          were not familiar with FEMA temporary housing contracts.

                          In July 2006, FEMA officials said they hired Cadre of On-Call Response/
                          Recovery Employees to serve as COTRs for Gulf Coast recovery efforts; but
                          the number of COTRs on staff was still insufficient to provide adequate
                          contractor oversight. Because of this, some FEMA staff believed that the
                          contractors were “running the show.” We are conducting a review of the four
                          Individual Assistance Technical Assistance Contractors and plan to issue a
                          report on their performance later this fiscal year.

                              •    The HAC had responsibility for coordinating temporary housing
                                   throughout the affected area but did not communicate its activities to
                                   other FEMA field organizations. This contributed to problems with
                                   contract oversight in that the HAC requested contractors to perform
                                   additional work without COTR knowledge or contracting officer
                                   approval. As a result, neither the contracting officer nor the COTR
                                   were afforded the opportunity to approve of, document, or oversee and
                                   monitor the contractors’ work. 12

                              •    Another indicator of the need for additional oversight was the number
                                   of rejected, temporary housing sites and related costs for group sites
                                   developed for travel trailers and mobile homes. As of April 2006,
                                   FEMA has spent over $14.2 million for 338 sites that were rejected for

10
   A document listing and acknowledging receipt of travel trailers and mobile homes delivered by/for a contractor.
11
   Hurricane Katrina: Planning for and Management of Federal Disaster Recovery Contracts, GAO-06-622T, dated
April 10, 2006.
12
   FAR Part I, Subpart 1.601 (a) – Career Development, Contracting Authority, and Responsibility provides “contracts
may be entered into and signed on behalf of the Government only by contracting officers.”


                     FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                       Page 18
                various reasons. Since poor contract planning, monitoring, and
                oversight may have contributed to these sites being rejected, we are
                reviewing nine sites that were rejected for various reasons, after an
                estimated total of $3.7 million was spent preparing the sites. We plan
                to issue a report later this fiscal year.

       FEMA is aggressively recruiting contracting officers and COTRs to augment
       its contract staff. It initially established a separate contracting office to handle
       procurement activity for the gulf region; however, that office is now rolled
       into FEMA’s procurement office under the Chief Acquisition Officer. These
       are important steps to provide additional oversight, controls, and support for
       Gulf Coast recovery operations and to better meet the procurement demands
       after future catastrophic disasters.

Recommendations

       We recommend that the Administrator, Federal Emergency Management
       Agency:

       Recommendation #5: In coordination with the DHS Chief Procurement
       Officer, develop an acquisition strategy that (1) addresses housing needs,
       supplies, and services prior to disasters; (2) considers the effect on production
       capabilities and available on-site inventory; and (3) balances the capabilities
       of distributors, wholesalers, retailers, and manufacturers, and maximizes the
       use of them.

       Recommendation #6: Evaluate basic housing requirements occurring after
       catastrophic disasters, put in place contracts and infrastructure to respond to
       the needs of catastrophic disaster victims, and develop policies and procedures
       to re-compete contracts when expedited contracting methods are used
       immediately following a major disaster.

       Recommendation #7: Develop policies and procedures to ensure that
       procurement personnel properly maintain contract files as defined by the
       FAR, including documents that show the basis used to determine price
       reasonableness as well as documents regarding any other contracting
       decisions.

       Recommendation #8: Undertake the following actions: (1) determine the
       appropriate number of contracting professionals and experienced COTRs
       required to meet sheltering and transitional housing needs occurring after a
       catastrophic disaster, (2) continue to hire experienced contracting
       professionals to monitor and oversee housing contracts awarded in a disaster
       environment, (3) promulgate specific guidance emphasizing the authority and


  FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                    Page 19
          responsibility of contracting officers and COTRs qualified to perform housing
          acquisitions, and (4) include provisions for the training of contracting officers
          and COTRs functioning in catastrophic disaster environments.

FEMA Oversight of Leasing Sites

          Individual Assistance Technical Assistance Contractors negotiated leases for
          commercial travel trailer and mobile home park sites with little input from
          FEMA’s housing officials. As a result, FEMA had little control over the types
          of temporary sites leased or the amounts paid for the sites and, in several
          instances, contractor-leased sites were rejected for various reasons. Further,
          without explicit policies and procedures to govern the use of travel trailers in
          industrial and government sites, FEMA encountered accountability problems.

              •    In Louisiana, sites were rejected because parish and city officials
                   changed their minds, site owners withdrew their offers, environmental
                   concerns prevented use of the sites, costs were too high, or the sites
                   were not needed. Over $9 million was spent on rejected sites, and
                   FEMA closed 114 commercial parks because FEMA’s contractors
                   performed all negotiations for leases without any input from FEMA’s
                   housing officials. Also, inexperienced COTRs contributed to the
                   difficulty of monitoring contracts because they were not familiar with
                   FEMA design requirements, programs, or regulations.

              •    A FEMA initiative allowed the use of industrial sites to house workers
                   who were victims, but also made these sites available to other victims
                   as well. This was the first disaster that used sites for industrial
                   purposes and the Department of Louisiana Economic Development
                   was the first to implement the initiative. Since FEMA had no
                   regulations and procedures to govern the initiative, accountability
                   problems resulted and FEMA was uncertain that trailers were being
                   used for the intended purposes. For example, one nursing home in
                   Louisiana requested 15 trailers to house staff, but the trailers were
                   never hooked up. FEMA finally recovered them months later as other
                   victims waited for housing.

              •    Another initiative known as exclusive use sites allowed installation of
                   trailers to be used for critical employees of government agencies. The
                   sites were established on government properties and were intended to
                   house employees deemed essential to maintain health and safety, such
                   as doctors, firefighters, and police. However, FEMA did not have
                   policies and procedures in place to ensure the trailers were used as
                   intended.



     FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                       Page 20
  Recommendations
         We recommend that the Administrator, Federal Emergency Management
         Agency:

         Recommendation #9: Develop explicit criteria for what a temporary housing
         site should include, as well as criteria for how appropriate sites are selected
         for development.

         Recommendation #10: Institute an oversight program that ensures
         Individual Assistance Technical Assistance Contractors identify and select
         eligible temporary housing sites for disaster victims.

         Recommendation #11: Work with state and local governments to develop
         policies, plans, procedures, and processes to identify and set up group and
         individual temporary housing sites that will accommodate specific or special
         needs of victims prior to disasters.

Manufacturers’ Warranties
         FEMA did not take advantage of manufacturer warranties on travel trailers
         and mobile homes it acquired. Instead, Individual Assistance Technical
         Assistance Contractors and Maintenance and Deactivation Contractors made
         repairs that were covered by warranties. As a result, FEMA paid for repairs
         that should have been done by the manufacturer at no cost to the government.

         In order to take advantage of and enforce warranties, FEMA needs to:

             •    Establish and implement policies and procedures that require taking
                  advantage of warranties on travel trailers and mobile homes, as well as
                  any major item procured;

             •    Identify repair and maintenance costs to provide a basis for taking
                  advantage of the warranties; and

             •    Recover funds from Individual Assistance Technical Assistance
                  Contractors and Maintenance and Deactivation Contractors for work
                  that should have been covered by warranties.

         We could not quantify the savings that could have accrued as a result of
         claims against manufacturers’ warranties because FEMA does not track
         claims or pursue them; its contractors performed most of the maintenance and
         repair work. In addition, FEMA’s contractors had little or no incentive to



    FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                      Page 21
       claim manufacturers’ warranties because they were paid by FEMA for all
       work they performed regardless of the existence of warranties.

       FEMA contracting officials agreed that travel trailer and mobile home defects
       identified at the time of delivery to FEMA’s staging areas were warranty
       items that should have been rectified by the manufacturers. FEMA logistics
       officials said that in many cases, defects were corrected at FEMA staging
       areas prior to FEMA acceptance of the units. However, in many other cases,
       FEMA lost control of the units when it allowed the contractors to move
       trailers to contractor-operated forward staging areas. FEMA officials said that
       the contractors should have sought reimbursement for warranty work from the
       manufacturers; however, they had no knowledge of whether this was done.
       Without this knowledge, FEMA had no basis to question bills submitted by its
       contractors.

       FEMA officials also said they had little knowledge of what trailers and mobile
       homes were received in the forward staging areas and what the Individual
       Assistance Technical Assistance Contractors were doing. We were told and
       confirmed that FEMA contractors cannibalized travel trailers. Parts were
       removed from some of the damaged trailers and used on other trailers to make
       them mission capable because replacement parts were not readily available
       after the disaster. Although FEMA’s contracts required that it be informed of
       deficient trailers upon receipt, FEMA officials said that the contractors did not
       report the damaged trailers and trailers with missing parts, nor did FEMA
       inspect the trailers at forward staging areas. As a result, non-mission capable
       trailers were listed in FEMA’s inventory as mission capable, and FEMA had
       little visibility over what work may have been eligible under the
       manufacturers’ warranties. Further, the decision to cannibalize damaged
       trailers may have voided the manufacturers’ warranties. The issue of
       cannibalization of travel trailers is more fully discussed in the OIG report,
       Cannibalization of Travel Trailers by Bechtel, GC-HQ-06-35, dated
       April 21, 2006.

Recommendations
       We recommend that the Administrator, Federal Emergency Management
       Agency:

       Recommendation #12: Develop policies and procedures requiring that (1) all
       travel trailers and mobile homes are properly inspected/accepted upon receipt,
       (2) inspection/acceptance documentation is retained, and (3) maintenance and
       repair costs, including the costs of parts claimed by contractors, are monitored
       and warranties enforced.



  FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                    Page 22
          Recommendation #13: For future disasters, determine whether Individual
          Assistance Technical Assistance Contractors made repairs that should have
          been reported to the manufacturers at the time of acceptance/inspection and,
          whenever applicable, covered under the implied warranty clause, and seek
          reimbursement from the contractors or manufacturers as appropriate.

Alternatives To Status Quo
          The Stafford Act and the National Response Plan require that FEMA address
          housing needs when states are unable to meet these needs after a disaster.
          Historically, FEMA has successfully met the short- and longer-term
          temporary housing needs (shelters and transitional housing) of the victims of
          most presidentially-declared disasters. However, as a result of the Gulf Coast
          hurricanes, FEMA has not only become the focal point for meeting the
          sheltering and transitional housing needs of disaster victims, but also the focal
          point for permanent housing solutions for these victims.

          FEMA’s lessons learned report on the federal response to Hurricane Katrina
          pointed out that FEMA neither identified available sites and available land to
          meet temporary and long-term housing needs before the disaster nor took
          advantage of housing resources available from other federal agencies after the
          disaster. Reports from Congress and the Executive Branch call for the federal
          government to develop a comprehensive and flexible housing strategy that
          requires the involvement of numerous federal agencies to meet the short-term,
          longer-term, and permanent housing needs of disaster victims.

          Several alternatives to the status quo should be considered before the next
          catastrophic disaster inasmuch as these alternatives may be a more cost
          effective way to meet the needs of disaster victims and provide a more
          expeditious way of returning them to a more normal way of life. Alternatives
          to FEMA being the primary provider of long-term housing include having
          (1) the states assume housing responsibility, (2) HUD assume federal
          coordination of the housing function, (3) FEMA use permanent types of
          housing in lieu of travel trailers and mobile homes, and (4) FEMA make lump
          sum payouts and rely on disaster victims to find longer term housing that
          meets their specific needs.




     FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                       Page 23
                           States Assume Housing Responsibilities

                           A White House report 13 issued after Hurricane Katrina stated that state and
                           local governments in areas most affected by the Gulf Coast hurricanes were
                           not adequately prepared to provide housing assistance. States lacked the
                           necessary information about temporary housing and had not compiled a
                           comprehensive database on shelters. According to the White House report,
                           temporary housing in Mississippi was provided in numbers exceeding any
                           previous effort, but this success was obscured by the need to move victims
                           from shelters to other types of housing within an acceptable period of time.
                           The White House concluded that new housing methodologies needed to be
                           examined and implemented before the next catastrophic disaster.

                           Officials in Florida, Louisiana, and Mississippi said that they continually
                           attempt to identify available housing, but after a major disaster event, these
                           efforts are negated by federal intervention in providing housing. Arguably,
                           housing needs are best determined by states and local governments. However,
                           as noted in the White House report, states and local governments do not
                           adequately identify and carry through on meeting these needs in times of
                           catastrophic events.

                           One way FEMA can assist the states in being prepared to meet the long-term
                           housing needs of catastrophic disaster victims is to request from Congress
                           additional Emergency Management Performance Grant funding with specific
                           terms and conditions in the grants that require development of a catastrophic
                           housing strategy and plan to meet the needs of disaster victims. For 2008,
                           states received about $210 million for payroll and training costs related to
                           preparedness. The National Emergency Management Association, which
                           represents all state emergency managers, has continuously sought increases in
                           Emergency Management Performance Grant funding to enhance the states’
                           preparedness infrastructure. Planning for the housing needs of disaster
                           victims is a critical element of preparedness and could be a candidate for
                           additional grant program funding.

                           HUD Assumes Federal Coordination of the Housing Function

                           The White House, Congress, and some FEMA officials believe the housing
                           program should be transferred to HUD because housing is that agency’s
                           specialty. However, many FEMA officials believe this is not a viable solution
                           because HUD may not be sufficiently funded to accomplish this mission.
                           Prior to the establishment of FEMA in 1979, HUD’s Federal Disaster
                           Assistance Administration was one of several federal agencies meeting the
                           housing needs of disaster victims.
13
     The Federal Response to Hurricane Katrina Lessons Learned, February 2006.


                      FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                        Page 24
     The Department of Homeland Security Appropriation Act, 2007 (Public Law
     109-295) requires that FEMA be overhauled to improve the Nation’s ability to
     respond to catastrophic events. The Public Law introduced a number of
     amendments to the Stafford Act including Section 682, National Disaster
     Recovery Strategy. This section directs the FEMA Administrator, in
     coordination with the Secretary of HUD and numerous other federal agencies
     and non-governmental organizations, to develop, coordinate, and maintain a
     National Disaster Recovery Strategy. This would include a NDHS to serve as
     a guide to recovery efforts after major disasters and emergencies. To be
     effective, the strategy must clearly define the roles, programs, and
     responsibilities of those tasked with providing housing for disaster victims and
     identify the most efficient and cost effective federal programs, to meet
     short- and long-term housing needs.

     The Public Law also requires that the National Response Plan and its annexes
     be reviewed to ensure that a unified system of strategic and operational plans
     exist to respond effectively to catastrophic events. Mass evacuation planning
     should include short- and long-term sheltering and accommodations, and
     should consider (1) relocating and transporting evacuees, (2) identifying
     populations with special needs, (3) keeping families together,
     (4) expeditiously locating missing children, and (5) establishing policies and
     procedures for pets.

     Consideration should be given to having HUD coordinate the federal response
     to disaster housing issues. The NDHS should include the roles, programs, and
     responsibilities of applicable federal agencies providing housing assistance, as
     well as those of states, local governments, and non-governmental
     organizations such as the American Red Cross. A draft of this document is
     currently in the review process. The strategy should detail how
     responsibilities will be shared, address funding issues, and address other
     matters concerning the cooperative effort to provide housing assistance
     needed as a result of a major disaster. For example, the strategy should
     consider:

          •   Mechanisms to ensure that housing is provided where employment
              and other support resources are available,
          •   Needs of low income victims,
          •   Planning for operation of clusters of housing, and
          •   Delineating what additional authorities may be needed to effectively
              fulfill the housing mission.




FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                  Page 25
                         Permanent Housing Options

                         Lessons learned from the Gulf Coast hurricanes also showed that the
                         traditional travel trailer and mobile home program was neither the most
                         efficient and cost effective means of providing temporary housing for
                         catastrophic disaster victims nor the best method to facilitate long-term
                         recovery from the disaster. In the aftermath of Hurricane Katrina, FEMA met
                         short-term housing needs with travel trailers and longer-term needs with
                         mobile homes, but other alternatives were needed to meet the permanent
                         housing needs of disaster victims.

                         Recognizing the extensive housing challenges presented by Hurricane
                         Katrina, as well as limitations within the Stafford Act, Congress appropriated
                         $400 million 14 to DHS to support alternative housing pilot programs.
                         Congress provided that:

                             “Notwithstanding any other provision of law, the Secretary of
                             Homeland Security shall consider eligible under the Federal
                             Emergency Management Agency IA Program the costs sufficient
                             for alternative housing pilot programs in the areas hardest hit
                             by Hurricane Katrina and other hurricanes of the 2005 season.”

                         FEMA’s Alternative Housing Pilot Program made funding available to Texas,
                         Mississippi, Alabama, Louisiana, and Florida based on proposals that:
                            • Represented innovative approaches to housing,
                            • Represented safe housing solutions,
                            • Were cost effective, and
                            • Could be delivered in an expedient manner.

                         We reviewed the decisions made in establishing the competitive grant
                         program, as well as the process used to review each proposal. The Alternative
                         Housing Pilot Program is more fully discussed in the OIG report, Evaluation
                         of the Federal Emergency Management Agency’s Alternative Housing Pilot
                         Program, OIG-07-39, dated April 20, 2007.

                         Should FEMA continue to administer long-term housing solutions after future
                         catastrophic disasters, it needs to consider modular homes, as shown below in
                         Figure 4, as a more viable method of helping disaster victims in their recovery
                         process rather than travel trailers and mobile homes. According to FEMA
                         officials, innovations in the building industry allow builders to construct
                         permanent housing following local codes, including construction in mobile

14
  Public Law 109-234, FY 2006 Emergency Supplemental Appropriation, and Conference Committee Report entitled,
“Report 109-494-Making Emergency Supplemental Appropriations for the Fiscal Year Ending September 30, 2006, and
For Other Purposes.”


                    FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                      Page 26
     home parks. This also includes floodplain areas, in which a waiver or
     amendment of restrictions is required as housing units may be placed on stilts
     or raised above the flood level.

      Figure 4: Modular Home, also referred to as a Katrina Cottage




     Source: Robbie Caponetto/Cottage Living Magazine, 2007

     Since these units are permanent, refinancing could be sought by the victims to
     make these units their permanent residences. This would expedite their
     recovery and reduce the long periods of time some victims have had to cope
     with inadequate housing. FEMA officials believe these structures can be put
     into place in approximately the same time it takes to purchase, transport, and
     set up a trailer or mobile home, and that any additional cost would be
     minimal. FEMA has contracted with the National Institute for Building
     Sciences to provide various services related to housing issues. Institute
     officials told us they will assist FEMA in developing criteria for temporary
     housing, evaluating different alternatives to housing, and evaluating the cost
     effectiveness of these alternatives.

     Lump Sum Settlement

     Another option may be to provide the disaster victim a lump sum settlement,
     no greater than a pre-determined cap, to be used for finding permanent
     housing. This would be based on consideration of all costs associated with the
     travel trailer or mobile home set up, maintenance, and the anticipated amount
     of time that the victim would be temporarily housed. As previously identified,
     mobile homes and travel trailers can range from $17,558 to $113,770
     depending on the type and where it is installed. The primary advantage to this


FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                  Page 27
              program is that it would be a one-time expenditure, paid to only those victims
              who have been screened and qualified, and would disqualify the applicant for
              any other housing assistance under a particular declaration. This program
              would require maximum oversight and a pre-qualification process with
              adequate controls to ensure that funds were authorized and issued to those
              applicants who passed all the qualification requirements.

    Considerations For Congress

              The results of this review and the alternatives to the status quo discussed
              above present matters that should be considered by Congress because the
              actions recommended below exceed FEMA’s authority, or require that
              Congress clarify or delineate FEMA’s authority in exercising its
              responsibilities.

              1. Authorize increased Emergency Management Performance Grant Program
                 funding to allow states in high-risk areas to identify housing opportunities
                 and to obtain temporary housing for victims of a catastrophic event.

              2. Determine whether HUD's mission is compatible with disaster response,
                 including an assessment of capabilities, staff experience in disaster
                 scenarios, and organizational capability to address catastrophic events. As
                 required in Public Law 109-295, consideration needs to be given to
                 mechanisms for coordination among all federal agencies that have a stake
                 in housing issues and whether HUD is in a position to accomplish such an
                 effort more effectively than FEMA.

              3. Evaluate a program that provides victims with a "one-time" cash
                 settlement based on historical costs of acquiring, providing, maintaining,
                 repairing, and administering transitional housing. This option would
                 require extensive pre-screening to avoid fraud, but also would have the
                 advantage of reducing FEMA's financial exposure for housing victims
                 during the recovery period and hasten recovery.

Management Comments and OIG Analysis
              FEMA provided written comments on the draft of this report (See
              Appendix C). FEMA generally concurred with 12 of the 13 recommendations
              in this report. FEMA did not concur with recommendation #13, but provided
              an acceptable alternative solution. The following summarizes FEMA’s
              responses to each recommendation, our analysis of FEMA’s responses, and
              the status of each recommendation.




         FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                           Page 28
     Recommendation #1: Expedite the completion of the National Disaster
     Housing Strategy and develop, implement, test, and exercise a housing plan
     for meeting the needs of individuals displaced by catastrophic disasters.

     FEMA concurs with this recommendation. In response to this
     recommendation, FEMA said the NDHS will convey a broad national strategy
     that defines the roles, programs, and authorities for public, private, and non-
     profit entities with responsibilities in disaster housing. The NDHS will
     highlight the forms of assistance that will be available to individuals,
     households, and communities in the event of a disaster. The NDHS will also
     include a requirement to develop a planning process that will work at the
     community, state, and federal level, and can be applied to the entire spectrum
     of potential events, and potential magnitudes, including those of catastrophic
     proportions. The disaster plan will guide the implementation, testing, and
     exercising of FEMA’s capabilities to ensure readiness to respond to and meet
     the needs of individuals displaced by disasters.

     OIG Analysis: To be responsive to recommendations, agency officials should
     provide target completion dates for implementing their planned actions.
     Although FEMA did not include a target completion date for the NDHS,
     FEMA officials have testified to Congress that the NDHS should be issued
     soon. Therefore, we consider FEMA’s planned action responsive to the
     recommendation. The recommendation is resolved and open pending
     FEMA’s issuance and our review of the NDHS and FEMA’s implementation
     and testing of its housing plan.

     Recommendation #2: Develop a command and control structure over
     housing decisions that clearly defines all roles and responsibilities and
     identifies the chain of command needed to ensure timely decision-making.

     FEMA concurs with this recommendation. FEMA said it is confident that the
     NDHS will sufficiently clarify roles and responsibilities for housing disaster
     victims for the full continuum of the disaster housing process.

     OIG Analysis: Because FEMA plans to issue the NDHS soon; we consider
     FEMA’s planned action responsive to the recommendation. Therefore, the
     recommendation is resolved and open pending FEMA’s issuance and our
     review of the NDHS.

     Recommendation #3: Develop policies, procedures, and guidelines that
     address roles and responsibilities of FEMA, and state and local governments
     articulating how housing needs of victims will be met in catastrophic events.

     FEMA concurs with this recommendation. FEMA said it has taken several
     steps to address this issue including issuing the Emergency Support Function

FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                  Page 29
     (ESF) #6 annex to the National Response Framework, published in
     January 2008. Additionally, FEMA and the American Red Cross have
     worked with their ESF #6 partners at the national level to revise the ESF #6
     standard operating procedures. This process has been valuable in identifying
     and defining authorities, roles, and capabilities of all ESF #6 agencies.
     Also, the NDHS will convey national guidance and a vision for providing
     disaster housing assistance. It will define the roles, programs, authorities, and
     responsibilities of all entities, detailing shared responsibilities and
     emphasizing the cooperative efforts required to provide disaster housing
     assistance. FEMA also published its Mass Sheltering and Housing Assistance
     recovery strategy, which provides guidance and protocols for providing
     sheltering and housing assistance. Finally, FEMA developed a Transitional
     Sheltering Protocol, which can be implemented when large numbers of
     evacuees are housed in congregate shelters and are not able to return to their
     homes for extended periods of time.

     OIG Analysis: We consider FEMA’s planned action responsive to the
     recommendation. Therefore, the recommendation is resolved and open
     pending FEMA’s issuance and our review of the NDHS.

     Recommendation #4: Finalize and implement its strategy for developing a
     system that authorizes eligible applicants to obtain an IHP-subsidized
     hotel/motel room for temporary sheltering.

     FEMA concurs with the recommendation. FEMA drafted its Lodging
     Expense Reimbursement policy that will establish a national standard for
     evaluating and processing requests from individuals and households for
     disaster related lodging expenses and will apply reimbursements against the
     individual household’s IHP financial limit.

     FEMA has also drafted a Transitional Sheltering (Emergency Lodging
     Assistance) policy that is designed for use in post-disaster situations where
     states are hosting large numbers of evacuees in congregate shelters, who will
     not be able to return to their homes for an indeterminate period of time. Both
     of these draft policies are in the vetting stage and FEMA anticipates that they
     will be issued by mid-summer 2008.

     OIG Analysis: We consider FEMA’s planned action responsive to the
     recommendation. Therefore, the recommendation is resolved and open
     pending FEMA’s issuance and our review of the Lodging Expense
     Reimbursement and Transitional Sheltering (Emergency Lodging Assistance)
     policies.

     Recommendation #5: In coordination with the DHS Chief Procurement
     Officer, develop an acquisition strategy that (1) addresses housing needs,

FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                  Page 30
     supplies, and services prior to disasters; (2) considers the effect on production
     capabilities and available on-site inventory; and (3) balances the capabilities
     of distributors, wholesalers, retailers, and manufacturers, and maximizes the
     use of them.

     FEMA concurs with this recommendation. FEMA said these factors are
     currently included in the acquisition strategy under the Individual Assistance
     Technical Assistance Contractors and, upon release of the NDHS, FEMA’s
     Office of Acquisition will coordinate with the IA Technical Assistance
     Contractors and the DHS Chief Procurement Officer, to develop a
     comprehensive acquisition strategy that addresses all planning elements
     outlined in the NDHS.

     OIG Analysis: We consider FEMA’s planned action responsive to the
     recommendation. Therefore, the recommendation is resolved and open
     pending FEMA’s issuance and our review of the NDHS and the new
     comprehensive acquisition strategy.

     Recommendation #6: Evaluate basic housing requirements occurring after
     catastrophic disasters, put in place contracts and infrastructure to respond to
     the needs of catastrophic disaster victims, and develop policies and procedures
     to re-compete contracts when expedited contracting methods are used
     immediately following a major disaster.

     FEMA concurs with this recommendation. In FEMA’s response, it said
     FEMA’s IA Technical Assistance Contract II contracts feature a competitive
     bidding process for each task order. The long-term acquisition strategy is
     further illustrated with the planning and procurement of the IA Technical
     Assistance Contract III contracts. These contracts will be a follow on to the
     IA Technical Assistance Contract II contracts incorporating lessons learned
     during both the IA Technical Assistance Contract I and II contracts. Upon
     release of the NDHS, FEMA’s Office of Acquisition will coordinate with the
     IA Technical Assistance Contractors and the DHS Chief Procurement Officer,
     to develop a comprehensive acquisition strategy that addresses all planning
     elements outlined in the NDHS. This revised strategy will address immediate
     and long-term contracts.

     OIG Analysis: We consider FEMA’s planned action responsive to the
     recommendation. Therefore, the recommendation is resolved and open
     pending FEMA’s issuance and our review of the NDHS and the new
     comprehensive acquisition strategy.

     Recommendation #7: Develop policies and procedures to ensure that
     procurement personnel properly maintain contract files as defined by the
     FAR, including documents that show the basis used to determine price

FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                  Page 31
     reasonableness as well as documents regarding any other contracting
     decisions.

     FEMA concurs with this recommendation. FEMA said it will work to ensure
     that procurement personnel adhere to documentation requirements outlined in
     the FAR.

     OIG Analysis: Although FEMA concurs with the recommendation, its
     response does not include developing policies and procedures to properly
     maintain contract files. Therefore, we will consider the recommendation
     resolved, but it will remain open until FEMA institutes corrective action.

     Recommendation #8: Undertake the following actions: (1) determine the
     appropriate number of contracting professionals and experienced COTRs
     required to meet sheltering and transitional housing needs occurring after a
     catastrophic disaster, (2) continue to hire experienced contracting
     professionals to monitor and oversee housing contracts awarded in a disaster
     environment, (3) promulgate specific guidance emphasizing the authority and
     responsibility of contracting officers and COTRs qualified to perform housing
     acquisitions, and (4) include provisions for the training of contracting officers
     and COTRs functioning in catastrophic disaster environments.

     FEMA concurs with this recommendation. FEMA said it continues to focus
     on right-sizing contract oversight operations in the field and has increased its
     professional acquisition staff from approximately 35 to 118. FEMA agreed to
     develop additional specific guidance regarding the authority and responsibility
     of contracting officers and COTRs and agreed to provide additional
     procurement training to address catastrophic disasters.

     OIG Analysis: Although FEMA generally concurred with the
     recommendation, its response did not provide target completion dates for
     planned actions. Therefore, the recommendation is resolved and open
     pending completion and our review of additional specific guidance, and
     development and implementation of procurement training to address
     catastrophic disasters.

     Recommendation #9: Develop explicit criteria for what a temporary housing
     site should include, as well as criteria for how appropriate sites are selected
     for development.

     FEMA concurs with this recommendation. FEMA agrees with the need to
     develop explicit criteria that will govern the group site selection and
     construction process. FEMA is developing a policy document that will
     outline site identification considerations, such as cost and the proximity to
     services and the affected area.

FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                  Page 32
     OIG Analysis: Although FEMA concurred with the recommendation, its
     response did not provide a target completion date for its planned action.
     Therefore, the recommendation is resolved and open pending completion of
     development of explicit criteria, and development and our review of the policy
     document.

     Recommendation #10: Institute an oversight program that ensures
     Individual Assistance Technical Assistance Contractors identify and select
     eligible temporary housing sites for disaster victims.

     FEMA concurs with this recommendation. FEMA responded that oversight
     currently exists through the Individual Assistance Branch of the Joint Field
     Office, which is responsible for identifying and selecting eligible temporary
     sites. The IA Technical Assistance Contractor supports the identification of
     eligible sites, but only with direct management by the JFO Individual
     Assistance Branch.

     OIG Analysis: We consider FEMA’s planned action responsive to the
     recommendation. Therefore, the recommendation is resolved and closed.

     Recommendation #11: Work with state and local governments to develop
     policies, plans, procedures, and processes to identify and set up group and
     individual temporary housing sites that will accommodate specific or special
     needs of victims prior to disasters.

     FEMA concurs with this recommendation. FEMA responded it is working
     closely with states, tribal governments, counties and independent
     municipalities on a Gap Analysis planning initiative that includes the pre-
     disaster identification of housing resources, including rental units and
     potential group site locations. This analysis will include special needs
     considerations as part of the planning process.

     OIG Analysis: Although FEMA concurred with the recommendation, its
     response did not provide a target completion date for its Gap Analysis
     planning document. Therefore, the recommendation is resolved and open
     pending completion of the planning document.

     Recommendation #12: Develop policies and procedures requiring that (1) all
     travel trailers and mobile homes are properly inspected/accepted upon receipt,
     (2) inspection/acceptance documentation is retained, and (3) maintenance and
     repair costs, including the costs of parts claimed by contractors, are monitored
     and warranties enforced.




FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                  Page 33
     FEMA concurs with this recommendation. FEMA responded it has
     implemented a stringent Quality Assurance/Quality Control program for the
     procurement of new temporary housing units.

     OIG Analysis: We consider FEMA’s action responsive to the
     recommendation. Therefore, the recommendation is resolved and open
     pending our receipt and review of documentation supporting the Quality
     Assurance/Quality Control program.

     Recommendation #13: Determine whether Individual Assistance Technical
     Assistance Contractors made repairs that should have been reported to the
     manufacturers at the time of acceptance/inspection and, whenever applicable,
     covered under the implied warranty clause; and seek reimbursement from the
     contractors or manufacturers as appropriate.

     FEMA does not concur with this recommendation. While FEMA agrees that
     repair requirements should have been reported to the manufacturers and
     covered by warranty, FEMA does not concur with the recommendation to
     seek, at this late date, reimbursement from Hurricane Katrina contractors or
     manufacturers for minor repairs performed by IA Technical Assistance
     Contractor personnel, believing that such an effort would be cost-prohibitive.
     However, to correct this problem in the future, FEMA has instituted a
     stringent Quality Assurance/Quality Control process that will identify and
     correct discrepancies prior to acceptance at the manufacturing facilities. At
     this time FEMA is completing 100% inspection of all newly procured units
     and requiring all discrepancies be corrected prior to acceptance.

     OIG Analysis: FEMA did not concur with the recommendation to seek
     reimbursement from contractors at this late date for repairs that should have
     been reported to the manufacturers and covered by warranty. We revised the
     recommendation to indicate that this should be implemented for future
     disasters. We accept FEMA’s alternative corrective action that the
     development of the Quality Assurance/Quality Control process should prevent
     this problem in the future. Therefore, the recommendation is resolved and
     open pending our receipt and review of documentation supporting the Quality
     Assurance/Quality Control program.




FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                  Page 34
Appendix A
Purpose, Scope, and Methodology

                     Our objectives were to determine whether and to what extent FEMA
                     (1) conducted pre-disaster planning for emergency sheltering and temporary
                     housing; (2) complied with existing federal regulations and policies governing
                     emergency housing assistance provided under the Robert T. Stafford Disaster
                     Relief and Emergency Assistance Act, as amended; (3) managed and executed
                     its pre- and post-landfall emergency sheltering and transitional housing
                     mission; (4) effectively and efficiently met disaster evacuees housing needs;
                     and, (5) developed and implemented disaster specific guidance and lessons
                     learned to prepare for future major catastrophic disasters.

                     We focused on FEMA’s housing assistance activities in Louisiana,
                     Mississippi, Texas, Florida, and Alabama. We also considered potential
                     alternatives to fulfilling FEMA’s housing mission.

                     We analyzed disaster sheltering and temporary housing related plans, policies,
                     procedures, and guidance established and maintained by FEMA/DHS, HUD,
                     and state and local governments; and interviewed federal, state, non-profit,
                     and private sector officials.

                     Our interviews included officials from:

                         •    FEMA, DHS, Department of Health and Human Services, HUD, and
                              the Homeland Security Institute;

                         •    State Emergency Managers and Planners in Alabama, Louisiana,
                              Texas, Florida, and Mississippi;

                         •    FEMA Individual Assistance Technical Assistance Contractors in
                              Alabama, Louisiana, and Mississippi;

                         •    Volunteer Agency Liaisons and Faith-Based Organizations; and

                         •    FEMA authorized case managers in Alabama, Missouri, Louisiana,
                              Mississippi, and Texas.

                     Fieldwork began in March 2006 and continued through January 2008. This
                     review was conducted under the authority of the Inspector General Act of
                     1978, as amended, and according to Quality Standards for Inspections issued
                     by the President’s Council on Integrity and Efficiency.




                FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                  Page 35
Appendix B
Event Decision Timeline


       Date                     Event                                           Detail
   August 25, 2005             Landfall      Katrina makes landfall in Florida as a Category 1 hurricane.
                                             President Bush declares a State of Emergency for Florida.
   August 28, 2005           Declaration
                                             (FEMA Disaster Number-1602)
                                             Katrina makes landfall in Louisiana, Mississippi, and Alabama as a
                               Landfall
                                             Category 3 hurricane.
                                             President Bush signs major disaster declaration for Louisiana, Mississippi
                                             and Alabama to provide Individual and Public Assistance to selected
    August 29, 2005          Declaration
                                             parishes and counties. (FEMA Disaster Numbers-1603, 1604, and
                                             1605)
                                             Amendment 1 to the Presidential Declaration allows Louisiana to receive
                             Amendment
                                             Public Assistance categories A and B, including direct federal assistance.
                                             Expedited Assistance authorized in the amount of $2,000 for eligible
   September 6, 2005            Policy
                                             applicants under Individuals and Households Program (IHP).
                                             FEMA released Disaster Specific Guidance #2. Eligible Costs for
   September 9, 2005           Decision
                                             Emergency Sheltering Declarations-Hurricane Katrina.
                                             FEMA releases a policy on Temporary Housing Assistance for
  September 19, 2005           Decision
                                             Households displaced by Hurricane Katrina.
                               Landfall      Rita makes landfall in Texas and Louisiana as a Category 3 hurricane.
  September 24, 2005                         President Bush issues a major disaster declaration for Texas and
                             Declaration
                                             Louisiana. (FEMA Disaster Numbers-1606 and 1607)
                                             Transitional Housing Assistance authorized for eligible applicants in the
  September 28, 2005            Policy       most affected areas of Louisiana and Mississippi in the amount of $2,358
                                             for rent without home inspection under IHP.
                                             FEMA addresses requests for 30-day submissions for Requests for Public
   October 13, 2005            Decision
                                             Assistance. Extension granted with new due date of November 30, 2005.
                               Landfall      Hurricane Wilma makes landfall in Florida as Category 3 hurricane.
   October 24, 2005                          President Bush issues a major disaster declaration for Florida.
                             Declaration
                                             (FEMA Disaster-1609)
   October 31, 2005             Status       45,526 households were sheltered in hotel and motel rooms.
   November 6, 2005             Status       48,292 households were sheltered in hotel and motel rooms.
                                             McWaters v. FEMA Class Action lawsuit was filed against FEMA in
  November 10, 2005            Lawsuit       United States District Court in New Orleans on behalf of hurricane
                                             survivors who did not receive adequate FEMA assistance.
                                             FEMA issues Disaster Specific Guidance for Hurricanes Katrina, Rita and
                                             Wilma Temporary Housing Strategy. The letter informs each household
  November 14, 2005            Decision      that hotel assistance under Section 403 (Public Assistance) is scheduled to
                                             end on December 1, 2005. The guidance includes options for transitioning
                                             to a more permanent housing solution.
                                             FEMA issues a letter addressing a request for an extension to the 30-day
                                             submission for Public Assistance for FEMA Disasters 1603 and 1607-
  November 18, 2005            Decision
                                             Louisiana. In this letter, FEMA extends the Transitional Housing
                                             Assistance program until January 1, 2006.
                                             FEMA guidance ends Hotel Assistance, new or extended apartment leases,
                                Policy       paid by either local or State governments, reimbursements under Stafford
   December 1, 2005                          Act Section 403 (Public Assistance) funds.
                                             Hotel funding paid under the contract between FEMA and the Corporate
                                Policy       Lodging Consultants ends. Extension may be authorized but no more than
                                             14-day increments. No extension will be authorized after January 7, 2006.




                      FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                        Page 36
Appendix B
Event Decision Timeline


         Date                   Event                                          Detail
   December 3, 2005             Status       38,373 households were sheltered in hotel and motel rooms.
                                             FEMA hotel-motel housing programs for Hurricane Katrina evacuees in
   December 5, 2005            Decision
                                             Louisiana, Texas and Mississippi extended to January 7, 2006.
                                             Judge Duval, United States District Court of New Orleans, issued an order
                                             requiring FEMA to (1) extend the hotel/motel program until February
                                             2006; (2) give every evacuee in short-term lodging at least two weeks
  December 12, 2005            Lawsuit
                                             notice prior to terminating their assistance in the program; and (3) stop
                                             FEMA from requiring completion of a Small Business Administration
                                             loan application before Temporary Housing Assistance is given.
    January 1, 2006             Status       33,703 households were sheltered in hotel and motel rooms.
    January 7, 2006             Policy       FEMA states that no hotel funding extensions beyond this date.
                                             Judge Duval issued a modified order authorizing FEMA to (1) extend the
                                             deadline so that the earliest any evacuees can be terminated from the hotel
   January 12, 2006            Lawsuit       program is February 13; (2) March 1, for evacuees in the City of New
                                             Orleans and Jefferson Parish; and (3) ordering evacuees to register with
                                             FEMA by January 30.
   February 1, 2006             Status       26,262 households were sheltered in hotel and motel rooms.
                                             FEMA issues guidance regarding the transitioning of all eligible evacuees
   February 22, 2006           Decision      to long-term housing solutions by March 1, 2006. (Transitioning from
                                             Stafford Act Section 403 funding to Section 408 funding.)
                                Policy       All Stafford Act Section 403 (Public Assistance) apartment leases end.
                                             All Stafford Act Section 403 to 408 program transitions should be
    March 1, 2006               Policy
                                             completed, with the exclusion of state and local employee camps.
                                Status       6,533 households were sheltered in hotel and motel rooms.
                                             FEMA issues guidance extending the transition of all eligible evacuees to
    March 4, 2006              Decision      long-term housing solutions to April 1, 2006. This policy is only for the
                                             State of Texas.
                                             FEMA issues Disaster Specific Guidance - Conversion of Assistance from
                                             403 to 408. This guidance provides possible eligibility for Individuals &
                                             Households Program recipients who have reached program limits and
    March 26, 2006             Decision
                                             have a continuing housing need, to transition from Financial Assistance to
                                             Direct Assistance. Assistance will last 18 months after the disaster
                                             declaration. (See Notes 3 and 4).
                                             FEMA issues a letter providing State Public Assistance Grantees
                                             additional guidance on the transition of evacuees from Stafford Act
    March 27, 2006             Decision      Section 403 to 408 funding. This letter reflects the information listed in
                                             the March 26, 2006, FEMA Disaster Specific Guidance.
     April 3, 2006              Status       1,481 households were sheltered in hotel and motel rooms.
                                             FEMA makes an effort to notify all Public Assistance applicants of the
    April 15, 2006              Policy
                                             number of evacuees who are eligible to receive continued assistance.
                                             FEMA issues guidance specifying that Public Assistance Applicants (state
    April 30, 2006              Policy       governments) must notify or assure notification of evacuees of lease
                                             termination.
     May 1, 2006                Status       547 households were sheltered in hotel and motel rooms
                                             Watson v. FEMA was filed in United States District Court in Houston on
     May 19, 2006              Lawsuit       behalf of hurricane Katrina and Rita survivors who did not receive proper
                                             assistance in the FEMA Apartment Program.




                      FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                        Page 37
Appendix B
Event Decision Timeline

         Date                   Event                                            Detail
                                             FEMA will not reimburse states for emergency sheltering costs for
                                             ineligible evacuees beyond May 31, 2006. Ineligible evacuees who were
                                             notified after April 15, 2006, will be granted an additional 30 days to
                                Policy       receive Stafford Act Section 403 emergency sheltering funding. The
     May 31, 2006                            exceptions are when (1) Public Assistance Applicants to Landlord and
                                             evacuee were accomplished by April 30, 2006 and (2) contractual lease
                                             termination provisions require more than 30 days notice.
                                             A United States District Court judge in Houston orders FEMA to expedite
                               Lawsuit
                                             all apartment extension requests.
     June 2, 2006               Status       250 households were sheltered in hotel and motel rooms.
                                             The United States District Court judge in Houston issues an injunction
     July 13, 2006             Lawsuit       ordering FEMA to pay both rent and utilities, up to the HUD Fair Market
                                             Rents for all Section 408 Temporary Housing Program participants.
                                             121,922            Louisiana            Mississippi       Alabama
                                             households         3,514 - Mobile       6,300 -Mobile 2,514 -Travel
                                             reside in          Home units used Home units             Trailer units used.
                                             FEMA               67,620 - Travel      used.
     August 2006                Status       provided travel Trailer units           41,974 -Travel
                                             trailers and       used.                Trailer units
                                             mobile homes. 32 households             used.
                                                                are living in
                                                                hotel/motels.
                                             The Association of Community Organizations for Reform Now (ACORN)
    August 29, 2006            Lawsuit       vs. FEMA filed a complaint on behalf of evacuees of Katrina and Rita
                                             stating that FEMA terminated housing assistance without notification.
                                             United States 5th Circuit Court of Appeals overturned Houston District
   September 6, 2006           Lawsuit       Court judge’s injunction, alleviating FEMA’s requirement to pay both
                                             Section 408 participants’ rents and utilities.
  September 17, 2006            Status       31 households were sheltered in hotel and motel rooms.
                                             The United States District Court for the District of Columbia ordered
                                             FEMA to reinstate 403 sheltering for all hurricane Katrina/Rita evacuees
  November 29, 2006            Lawsuit
                                             determined ineligible for assistance under the Section 408 temporary
                                             housing program as of August 31, 2006.
                                             FEMA filed a notice of appeal and motion to stay the order with the
   December 5, 2006            Lawsuit
                                             United States District Court for the District of Columbia.
                                             The United States District Court for the District of Columbia denied
   December 8, 2006            Lawsuit       FEMA' s motion for a stay and issued an order seeking additional
                                             information.
                                             FEMA filed an Emergency Motion for Stay Pending Appeal with the D.C.
  December 11, 2006            Lawsuit
                                             Circuit Court of Appeals.
                                             The United States District Court of District of Columbia amended its
                                             Nov. 29, 2006 order, ordering that FEMA restore 403 sheltering assistance
  December 12, 2006            Lawsuit       to evacuees in Texas who, on August 31, 2006, were being sheltered under
                                             Section 403 and had been found ineligible for Section 408 temporary
                                             housing.




                      FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                         Page 38
Appendix B
Event Decision Timeline

Notes
    1.   FEMA uses households as its primary measure.
    2.   Hotel and motel information is measured by room night billed. Variations can occur such as one person in a
         hotel room or 4 or more persons per room.
    3.   Direct Assistance is defined in Section 408 of the Stafford Act as temporary housing units acquired or leased
         directly to individuals and households because of a lack of available housing resources.
    4.   Financial Assistance is defined in Section 408 of the Stafford Act as financial assistance provided to individuals
         and households to rent alternative housing accommodations, existing rental units, manufactured housing,
         recreation vehicles, or other fabricated dwellings, based on the fair market rent for accommodations.

Legend

           Color                Action
                          Hurricane Landfall
                        Presidential Declaration
                        FEMA Policy Decision
                             FEMA Policy
                            Housing Status
                                Lawsuit




                      FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                         Page 39
Appendix C
Management Responses to Draft Report




                FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                  Page 40
Appendix C
Management Responses to Draft Report


                         Federal Emergency Management Agency (FEMA) Responses to
                                            Recommendations
                      DRAFT OIG REPORT – Sheltering and Transitional Housing Activities
                                                    after Hurricane Katrina


                     Recommendation 1: Expedite the completion of the National Disaster
                     Housing Strategy and develop, implement, test, and exercise a housing plan
                     for meeting the needs of individuals displaced by catastrophic disasters.

                         FEMA concurs with this recommendation. The National Disaster Housing
                         Strategy is currently under accelerated development, and is an Agency
                         priority. The NDHS will convey a broad, national strategy that defines the
                         roles, programs, and authorities for public (federal, state, local, tribal),
                         private, and non-profit entities with responsibilities in disaster housing,
                         highlighting the forms of assistance that will be available to individuals,
                         households, and communities in the event of a disaster. The NDHS
                         proposes that we develop a planning process that will work at the
                         community, state, and the federal level, and can be applied to the entire
                         spectrum of potential events, and potential magnitudes, including those of
                         catastrophic proportions. This planning process will guide the
                         implementation, testing, and exercising of our capabilities, to ensure our
                         readiness to respond, and meet the needs of individuals displaced by
                         disaster.

                     Recommendation 2: Develop a command and control structure over housing
                     decisions that clearly define all roles and responsibilities and identifies the
                     chain of command needed to ensure timely decision-making.

                         FEMA concurs with this recommendation and is confident that the NDHS
                         will sufficiently clarify roles and responsibilities for housing disaster
                         victims for the full continuum of the disaster housing process. The NDHS
                         will clearly identify the structure for coordinating those roles, and identify
                         those entities with the primary responsibility for the safety and welfare of
                         those affected by the disaster during the sheltering, interim, and long-term,
                         self-sustainable housing phases. This structure recognizes the importance
                         of timely, event-specific, field-driven actions, determined and
                         implemented at the appropriate, lowest jurisdictional level possible. Roles
                         and responsibilities outlined in the NDHS will be consistent with those
                         identified in the National Response Framework (NRF).

                     Recommendation 3: Develop policies, procedures, and guidelines that
                     address roles and responsibilities of FEMA and State and local governments


                FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                  Page 41
Appendix C
Management Responses to Draft Report

                     articulating how housing needs of victims will be met in catastrophic
                     disasters.

                         FEMA’s first step in addressing this issue has been the comprehensive
                         revision of the Emergency Support Function (ESF) #6 annex to the NRF,
                         published in January, 2008. The ESF #6 annex (Mass Care, Housing,
                         Emergency Assistance, and Human Services) supports and augments state,
                         regional, local, tribal, and nongovernmental organization (NGO) mass
                         care, emergency assistance, housing, and human services missions.
                         Through the Post Katrina Emergency Management Reform Act, Congress
                         has mandated that federal agencies take on additional responsibilities
                         during emergencies resulting in an expansion of the responsibilities under
                         ESF #6. The NRF established a new operational framework for ESF #6,
                         which significantly expands the responsibilities and activities of that
                         emergency support function. FEMA and ARC have worked diligently
                         with their ESF #6 partners at the national level to revise the ESF #6
                         standard operating procedures, and the process has been valuable in
                         identifying and defining authorities, roles, and capabilities of all ESF #6
                         agencies.

                         The Post-Katrina Emergency Management Reform Act of 2006 requires
                         FEMA to develop a NDHS. The NDHS will convey national guidance
                         and a vision for providing disaster housing assistance. It will define the
                         roles, programs, authorities, and responsibilities of all entities, detailing
                         shared responsibilities and emphasizing the cooperative efforts required to
                         provide disaster housing assistance. The NDHS will establish the
                         importance of an effective collaboration by Federal, State, Tribal, and
                         Local governments and includes nonprofit organizations and the private
                         sector in the provision of disaster housing assistance. The NDHS will
                         outline the most efficient and cost-effective options for meeting disaster
                         housing needs, and serve as the basis for pre-event planning by all
                         organizations with roles or responsibilities in disaster housing. The
                         NDHS describes and will address how disaster victims typically move
                         through the continuum of disaster housing as they work to achieve a
                         permanent housing solution. The NDHS development process included
                         extensive vetting and coordination with other entities involved in the
                         provision of disaster housing, including multiple federal, state, tribal,
                         local, and private organizations.

                         Additionally, in July 2006, FEMA published a Mass Sheltering and
                         Housing Assistance Recovery Strategy, which provided guidance and
                         protocols for providing sheltering and housing assistance. While this
                         strategy focuses on assistance associated with large hurricane evacuations,
                         the procedures and underlying processes may also apply to no-notice


                FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                  Page 42
Appendix C
Management Responses to Draft Report

                         events of a catastrophic nature. Key elements of the strategy are advance
                         identification of Congregate and Transitional Shelters to provide short-
                         term lodging and Temporary Housing facilities for an extended period of
                         time. Contained within the strategy is a Shelter Registration Protocol,
                         which will allow FEMA field personnel to proactively register evacuees at
                         designated congregate shelter locations and organized evacuee reception
                         sites, including those out-of-state. FEMA also has a Transitional
                         Sheltering Protocol, which may be implemented when large numbers of
                         evacuees are being housed in congregate shelters and will not be able to
                         return to their homes for extended periods of time.

                     Recommendation 4: Finalize and implement its strategy for developing a
                     system that authorizes eligible applicants to obtain an IHP-subsidized
                     hotel/motel room for temporary sheltering.

                         By regulation (CFR 206.117b), FEMA may provide reimbursement for
                         reasonable short-term lodging expenses that individuals and households
                         incur in the immediate aftermath of a disaster. To further effectuate this
                         authority, we have drafted a Lodging Expense Reimbursement policy that
                         will establish a national standard for evaluating and processing requests
                         from individuals and households for disaster related lodging expenses.
                         Reimbursements will be calculated against the individual household’s IHP
                         financial limit.

                         Additionally, we initiated an IHP-subsidized hotel/motel program for
                         Hurricane Katrina and Rita applicants who were housed in FEMA TT/MH
                         units and who requested relocation to a hotel/motel because of health
                         concerns related to formaldehyde. A specific 24-hour 800 number was
                         created to connect concerned applicants to a specialized group of
                         caseworkers who address their individual concerns. The caseworkers can
                         identify hotel resources and alternative housing if needed. If a hotel or
                         motel is needed for short term lodging, an authorization is granted which
                         allows the applicant to check into a participating hotel. Hotels are
                         available throughout the gulf coast region and coordination and
                         authorization is done through a contract with Corporate Lodging
                         Consultants.

                         Lastly, in accordance with the Transitional Sheltering Protocol as
                         described in the “Mass Sheltering and Housing Assistance – RS-001”
                         strategy, FEMA will authorize and fund the use of hotels, motels, cruise
                         ships or berthing vessels as transitional shelters. To effectuate this
                         authority, we have drafted a Transitional Sheltering (Emergency Lodging
                         Assistance) policy that is designed for use in post-disaster situations where
                         States are hosting large numbers of evacuees in congregate shelters, who


                FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                  Page 43
Appendix C
Management Responses to Draft Report

                         will not be able to return to their homes for an indeterminate period of
                         time. Transitional sheltering will be funded under Section 403 of the
                         Stafford Act and will not be calculated against the individual household’s
                         IHP financial limit.

                         Both of these draft policies are in the vetting stage and it is anticipated that
                         they will be issued by mid-summer 2008.

                     Recommendation 5: In coordination with the DHS Chief Procurement
                     Officer, develop an acquisition strategy that (1) addresses housing needs,
                     supplies, and services prior to disasters; (2) considers the effect on production
                     capabilities and available on-site inventory; and (3) balances the capabilities
                     of distribution, wholesalers, retailers, and manufacturers, and maximizes the
                     use for them.

                         These factors are currently included in the acquisition strategy under the
                         IA TAC.

                         Upon release of the National Disaster Housing Strategy, FEMA’s Office
                         of Acquisition will coordinate with the IA TAC and the DHS Chief
                         Procurement Officer, to develop a comprehensive acquisition strategy that
                         addresses all planning elements outlined in the new strategy.

                     Recommendation 6: Evaluate basic housing requirements occurring after
                     catastrophic disasters, put in place contracts and infrastructure to respond to
                     the needs of catastrophic disaster victims, and develop policies and procedures
                     to re-compete contracts when expedited contracting methods are used
                     immediately following a major disaster.

                         FEMA’s Individual Assistance (IA) Division, in conjunction with FEMA
                         Acquisition Management, has developed the IA TAC II contracts. The
                         contracts are Indefinite Deliverable Indefinite Quantity deliverables that
                         feature a competitive bidding process for each task order. These contracts
                         were competed in a non-disaster environment allowing both FEMA and
                         the contractors to clarify and modify the scope and terms when applicable
                         or required. The contracts encompass all IA missions and are exercised
                         continually on smaller disasters.

                         The long term acquisition strategy is further illustrated with the planning
                         and procurement of the IA TAC III contracts. These contracts will be a
                         follow on to the IA TAC II contracts incorporating lessons learned during
                         both the IA TAC I and IA TAC II contracts.




                FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                  Page 44
Appendix C
Management Responses to Draft Report

                         Upon release of the National Disaster Housing Strategy, FEMA’s Office
                         of Acquisition will coordinate with the IA TAC and the DHS Chief
                         Procurement Officer, to develop a comprehensive acquisition strategy that
                         addresses all planning elements outlined in the new strategy. This revised
                         strategy will address immediate and long-term contracts.

                     Recommendation 7: Develop policies and procedures to ensure that
                     procurement personnel properly maintain contract files as defined by the
                     FAR, including documents that show the basis used to determine price
                     reasonableness as well as documents regarding any other contracting
                     decisions.

                         FEMA concurs with this recommendation and will work to ensure that
                         procurement personnel adhere to documentation requirements outlined in
                         the FAR.

                     Recommendation 8: Undertake the following actions: (1) determine the
                     appropriate number of contracting professionals and experienced COTRs
                     required to meet sheltering and transitional housing needs occurring after a
                     catastrophic disaster; (2) continue to hire experienced contracting
                     professionals to monitor and oversee housing contracts awarded in a disaster
                     environment; (3) promulgate specific guidance emphasizing the authority and
                     responsibility of contracting officers and COTRs qualified to perform housing
                     acquisitions, and (4) include provisions for the training of contracting officers
                     and COTRs functioning in catastrophic disaster environments.

                         FEMA concurs with recommendations: (1). FEMA continues to learn
                         valuable lessons from our ongoing disaster response operations and
                         continues to focus on right-sizing our contract oversight operations in the
                         field. FEMA concurs with recommendation (2). Since Katrina struck the
                         gulf coast, FEMA has increased its professional acquisition staff from
                         approximately 35 to 118. In addition, FEMA’s Disaster Assistance
                         Directorate created the IA-TAC Program Management Office, which
                         oversees contractor support for FEMA’s housing and sheltering
                         operations. This Office is staffed with several DHS certified Program
                         Managers and approximately 40 DHS certified COTRs. FEMA also
                         concurs in part to recommendation (3) to the extent that additional specific
                         guidance emphasizing the authority and responsibility of contracting
                         officers and COTRs is needed.
                         FEMA concurs, in part, with recommendation (4), after a determination of
                         how existing training needs can be modified to address catastrophic
                         disasters.




                FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                  Page 45
Appendix C
Management Responses to Draft Report

                     Recommendation 9: Develop explicit criteria for what a temporary housing
                     site should include, as well as criteria for how appropriate sites are selected
                     for development.

                         FEMA concurs with the need to develop explicit criteria that will govern
                         the group site selection and construction process. At the same time, the
                         selection of group site locations is heavily influenced by state, local, and
                         environmental factors that are beyond FEMA’s control. State and Local
                         governments lead the initial identification of potential sites, and must
                         concur with the use and development of a group site location. The site
                         identification process requires that these influences are coordinated and
                         balanced to the greatest extent possible. In order to facilitate this process,
                         FEMA is pursing the development of a policy document that will outline
                         site identification considerations, such as cost and the proximity to
                         services and the affected area.

                        In addition, FEMA has requested that the National Advisory Council
                        (NAC) issue recommendations that will be used to establish a standard list
                        of facilities and services to be included in FEMA group sites. This includes
                        the delivery of infrastructure and additional social services to affected
                        residents living on temporary housing sites that go beyond a physical need
                        for housing. Specifically, the NAC has been asked to identify appropriate,
                        required, wrap-around services, identify the responsible agency or entity
                        (federal, state, local, or voluntary) for required services that FEMA does
                        not have the authority to provide, how the services should be funded, and
                        the effect of the services in relation to motivating more permanent
                        solutions.

                         Lastly, any housing units donated to a third party for the purposes of
                         housing disaster victims will be governed by FEMA’s Interim Policy
                         9455.1, Temporary Housing Unit Donations.

                     Recommendation 10: Institute an oversight program that ensures Individual
                     Assistance Technical Assistance Contractors identify and select eligible
                     temporary housing sites for disaster victims.

                         Oversight currently exists through the Individual Assistance Branch of the
                         Joint Field Office, which is responsible for identifying and selecting
                         eligible temporary sites. The IA-TAC supports the identification of
                         eligible sites but only with direct management of JFO Individual
                         Assistance Branch.

                     Recommendation 11: Work with state and local governments to develop
                     policies, plans, procedures, and processes to identify and set up group and


                FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                  Page 46
Appendix C
Management Responses to Draft Report

                     individual temporary housing sites that accommodate specific or special needs
                     of victims prior to disasters.
 
                         FEMA concurs, and is working closely with States, tribal governments,
                         counties and independent municipalities on a Gap Analysis planning
                         initiative that includes the pre-disaster identification of housing resources,
                         including rental units and potential group site locations. Several FEMA
                         Regions are currently working with state and local partners to pre-identify
                         group site locations under this initiative and have included special needs
                         considerations as part of their planning process.

                         FEMA has also developed related policy guidance: FEMA’s Interim
                         Policy # 9452.1, Temporary Housing Units for Eligible Disaster Victims
                         with a Disability. The purpose of this policy is to ensure that FEMA
                         provides temporary housing units on sites that can accommodate the
                         specific and special needs of disaster victims and outlines the agency’s
                         adoption of the Uniform Federal Accessibility Standards (UFAS)
                         established under the Architectural Barriers Act. In addition, this policy
                         establishes target inventory levels of units designed to incorporate UFAS
                         specifications, as well as set asides for accessible units and pads within
                         FEMA constructed group sites.

                     Recommendation 12: Develop policies and procedures requiring that (1) all
                     travel trailers and mobile homes are properly inspected/accepted upon receipt,
                     (2) inspection/acceptance documentation is retained, and (3) maintenance and
                     repair costs, including the costs of parts claimed by contractors, are monitored
                     and warranties enforced.

                         FEMA concurs and has implemented a stringent Quality
                         Assurance/Quality Control program for the procurement of new temporary
                         housing units. The manufacturer is required to conduct a “station by
                         station” check of each unit and make any necessary repairs before going to
                         the next station. Once constructed, the manufacturer conducts a whole unit
                         test and fixes any repairs required by the inspection. Also, FEMA will
                         have a qualified technical monitor (TM) on-site for the duration of the
                         contract and until the last unit is constructed. The TM will monitor each
                         unit from start to finish ensuring no errors are found. If any error is found,
                         the manufacturer is responsible to bring the unit into compliance or the
                         government is not responsible or obligated to purchase the unit. Once the
                         TM signs off on the unit, stating it meets the required specifications and
                         the unit is functional, the unit is transported to a long term staging site. At
                         this stage, a staff member from the Logistics Management Directorate
                         (LMD) inspects the unit for road damage. If damage is found, the



                FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                  Page 47
Appendix C
Management Responses to Draft Report

                         manufacturers are responsible for repairing the unit on location or replace
                         the unit with an additional unit at no expense to the government.

                         All inspection documentation is maintained within FEMA’s Logistics
                         Management Directorate.

                         Manufacturer’s warranties are reviewed throughout this inspection and
                         acceptance process to ensure comprehensive understanding of terms and
                         conditions and prevent duplication of benefit or unnecessary spending on
                         the part of FEMA. In a catastrophic disaster environment, a cost benefit
                         analysis of enforcing manufacturer warranties must be evaluated against
                         the urgent and compelling need to provide immediate housing solutions.

                     Recommendation 13: Determine whether Individual Assistance Technical
                     Assistance Contractors made repairs that should have been reported to the
                     manufacturers at the time of acceptance/inspection and, whenever applicable,
                     covered under the implied warranty clause, and seek reimbursement from the
                     contractors or manufacturers as appropriate.

                         While FEMA agrees that repair requirements should have been reported to
                         the manufacturers and covered by warranty, FEMA does not concur with
                         the recommendation to seek, at this late date, reimbursement from Katrina
                         contractors or manufacturers for minor repairs performed by IA-TAC
                         contract personnel, believing that such an effort would be cost-prohibitive.
                         However, as a remedy for future procurements of temporary housing units,
                         FEMA has instituted a stringent Quality Assurance/Quality Control
                         process that will identify and correct discrepancies of units prior to
                         acceptance at the manufacturing facilities. At this time FEMA is
                         completing 100% inspection of all newly procured units and requiring all
                         discrepancies be corrected prior to acceptance.




                FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                  Page 48
Appendix D
Major Contributors to This Report

                      Gina Smith, Director (Lead)
                      Robert Lastrico, Director
                      Moises Dugan, Supervisory Program Analyst
                      Cliff Melby, Senior Program Analyst
                      Gary Cox, Senior Auditor
                      Nigel Gardner, Senior Program Analyst
                      Lori Smith, Auditor




                 FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                   Page 49
Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      DHS Chief Procurement Officer
                      FEMA Audit Liaison (Project code GC-HQ-06-STH)
                      Assistant Administrator, Disaster Assistance Directorate
                      Director, Office of Management, FEMA

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committee, as appropriate




                 FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina

                                                   Page 50
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528,

The OIG seeks to protect the identity of each writer and caller.
